<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-259]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-259

 THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY FOR 
                            FISCAL YEAR 2018

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 22, 2017

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

            
        Available via the World Wide Web: http://www.govinfo.gov
               
               
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-077                       WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a6b1ae81a2b4b2b5a9a4adb1efa2aeacef">[email&#160;protected]</a>               
               
            
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Scott McKee, Democratic Professional Staff Member
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                                WITNESS

Perry, Hon. Rick, Secretary, U.S. Department of Energy...........     4

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     2
Heller, Hon. Dean:
    Letter for the Record........................................    38
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Perry, Hon. Rick:
    Opening Statement............................................     4
    Written Testimony............................................     8
    Responses to Questions for the Record........................    49

 
 THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY FOR 
                            FISCAL YEAR 2018

                              ----------                              


                        THURSDAY, JUNE 22, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order. I apologize for the delayed start, but hopefully 
we will have an opportunity to hear from the Secretary and 
learn of the President's views for the Department of Energy 
(DOE).
    Secretary Perry, I want to welcome you to your first 
hearing following your bipartisan confirmation here in the 
Senate. While it took us a little bit longer than we had hoped 
to get you in this role, we are glad to have you at the helm. 
We look forward to helping you get a full complement of folks 
there at the Department as well.
    The budget request for the Department of Energy takes a 
different approach this year than we have seen in the recent 
past. The President has made a concerted effort to increase 
funding for the National Nuclear Security Administration to 
focus on our nuclear weapons program. This is a portion of the 
Department that falls outside the scope of our Committee here.
    The Administration has also requested robust funding for 
the cleanup of nuclear waste left behind by our country's Cold 
War legacy. To offset those funding increases, the budget 
request proposes deep cuts to research and development for 
energy and science. It also proposes to phase out innovative 
programs, such as the Advanced Research Projects Agency-Energy 
(ARPA-E), that have had demonstrated success.
    I understand what drove this proposal, but I am also 
concerned by certain parts of it. The United States is the 
world leader in science and energy. We like it that way, we 
want to keep it that way and at the core of that excellence is 
the work done at our national labs and universities by the men 
and women who dedicate their careers to furthering science. 
Members on both sides of this Committee want to maintain and 
strengthen that leadership, so we need to be careful that we do 
not get in the way of the good work or the proper role of the 
private sector. Keeping that in mind, many of us have found 
good bipartisan opportunities where it makes sense to increase 
funding for R&D.
    I appreciate the need to derive savings and balance our 
budget, but that cannot come at the expense of our efforts on 
energy innovation. Good science should not sit on a shelf, and 
the Department should continue to push the limits of science in 
order to ensure that the next generation of energy technologies 
is developed here in this country.
    Although I do not support all of the proposals in this 
budget request, I believe that we do have some areas of 
agreement here. I also believe we can undertake reforms at the 
Department to help save taxpayer dollars. Our work on the loan 
programs is a good example, I think, of how that can work.
    My goal for the Department of Energy is to drive down the 
costs of emerging, pre-commercial technologies to make energy 
more affordable, reliable, clean, diverse, and secure. Taking 
you back to Energy 20/20, those principles have not changed, 
and it is particularly important for Alaska where energy costs 
are orders of magnitude above those in the Lower 48.
    Secretary Perry, again, thank you for being here this 
morning. I hope to be able to host you up in the state soon. I 
know that you have made similar commitments to colleagues in 
the Congress here. I look forward to hearing your priorities 
outlined before the Committee this morning.
    Now I will turn to our Ranking Member, Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, for holding this 
hearing, and welcome back, Mr. Secretary. The Department of 
Energy is a global leader in science and technology with an 
unrivaled network of national laboratories. It is also key to 
our national security when it comes both to nuclear and cyber 
threats.
    The President's budget proposes to slash many of the DOE's 
essential programs, and it would devastate emerging clean 
energy jobs in our economy. It would kill science and 
innovation and the jobs that DOE supports. The budget would 
raise electricity rates in the Pacific Northwest--I guarantee 
you a number of people on this Committee will not be supportive 
of that--by auctioning off federal utility assets. The budget 
would undermine U.S. energy leadership in a sector that is 
poised to grow millions of jobs around the world and, according 
to the International Energy Agency, more than $30 trillion will 
be invested in new renewable energy facilities and energy 
efficiency between now and 2040.
    We have heard a lot about the so-called energy dominance 
from this Administration. I would like to hear a lot less about 
exporting commodities that even nations like China are starting 
to have major blowback on and pledging more on how we are going 
to focus on winning the opportunity in energy efficiency, 
advanced technologies and things that consumers and businesses 
around the world are pledging commitment to.
    As this Committee recently showed, the cost of clean energy 
technologies have dropped between 41 percent and 94 percent 
since 2008. I was very proud to join the Chair on a recent 
Northwest trip where we saw energy efficiency helping 
businesses save dollars and also how microgrids in Alaska are 
looking for every advantage they can get in driving down the 
cost of energy.
    The success stories have been built on decades of strategic 
investment by the Department of Energy, and this is something 
that both Democrat and Republican administrations have 
supported, but President Trump's budget is a break in that 
bipartisan tradition. It is an attempt to turn back the clock 
on energy policy, I think, at the expense of the future.
    During your confirmation hearing, you committed to 
protecting science, protecting the men and women who conduct 
that science, and advocating for our national labs. So I have 
great concerns about what I think is a proposed cut that could 
affect as many as 1,000 people at the Pacific Northwest 
National Laboratory (PNNL).
    But specifically, this budget proposes to: eliminate ARPA-
E, which are the advanced, high-potential, high-impact energy 
technologies that are too early for the private sector to 
either take on or advance, critically important to our nation; 
eliminate the Weatherization Assistance Program and State 
Energy Program, which provides critical state assistance to 50 
states to help them; draconian cuts to the applied energy 
research programs, such as 70 percent for the Office of Energy 
Efficiency and Renewable Energy and 48 percent for the Office 
of Electricity Delivery and Electricity Reliability--I 
guarantee that is something that everybody across the board 
here cares about; and a 17 percent cut for the Office of 
Science, which is the largest federal sponsor of basic science 
and physical science.
    This week you questioned the certainty of science behind 
climate change and during your confirmation hearing you said, 
``I am going to protect all the science whether it's related to 
climate or whatever aspects we are going to be doing,'' end 
quote. So, Mr. Secretary, with all due respect, I want to make 
sure that you and your office have all the information that you 
need on science.
    Your budget proposal slashes the biological and 
environmental research within the Office of Science, the office 
that supports climate research, by 43 percent. Another 
troubling area is the important priority for DOE on energy 
infrastructure. Our grid and our energy networks are under 
cyberattack. From 2012 to 2016, the number of reported 
incidents against U.S. critical infrastructure more than 
doubled. And according to the Washington Post story last week, 
Russian government hackers have already shown their interest in 
targeting U.S. energy and utility systems.
    So this threat to our grid is clearly growing and this 
morning I, along with 18 of my colleagues, are sending a second 
letter to the President reiterating that DOE should address 
this growing threat on our critical infrastructure.
    During your confirmation hearing, you reassured me and the 
Committee that cybersecurity would be one of your top two 
priorities; nevertheless, your budget slashes the cyber funding 
by 30 percent. So I want to see a larger investment in this 
very, very critical area to our infrastructure.
    I would like to mention--I know my colleague from 
Washington had a chance to talk to you about Hanford funding 
yesterday--I am incredibly disappointed to see the 
Administration's approach to the Hanford cleanup. In light of 
the recent tunnel collapse at the Plutonium Uranium Extraction 
Facility followed by worker take-cover events at the Plutonium 
Finishing Plant and Richland's Operations Office budget being 
cut demonstrates a disregard for the health and safety of the 
individuals who are working in our state.
    The Trump Administration needs to understand that if we do 
not prioritize Hanford funding and the potential for safety and 
security, we are going to have issues and serious problems. 
These recent incidents are a wakeup call for the 
Administration, and that is why I am working to ensure that the 
resources are there for the public.
    Now I know that I have a little sheet here somewhere of all 
the ideas and schemes that people have come up with in the 
past. We had Secretary Watkins delay the Vit Plant construction 
in 1991 to reconsider the waste and pretreatment plant. For two 
years, the Clinton Administration planned the privatization 
authorization of the Vit Plant to pay contractors for glass 
logs. We saw Secretary Abraham try to accelerate cleanup by 
grouting the waste in the tanks and calling it good. We saw 
Secretary Chu convene science experts to review the Vit Plant. 
We had Secretary Moniz explore new ways of cesium and strontium 
treatment. So all I am saying is every Energy Secretary comes 
into office pressured--pressured more by some Office of 
Management and Budget (OMB) person who knows nothing about 
science--trying to do cleanup on the cheap. I guarantee you it 
cannot be done. We have to remain resolute and committed to 
cleaning this up and making decisions based on science. I look 
forward to asking more about that, but I know that many of my 
colleagues throughout the Pacific Northwest, both on this 
Committee and on the Appropriations Committee, will have a lot 
to say about our priorities for Hanford.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Secretary Perry, it is good to have you before the 
Committee. I will note that Alison Doone is with the Secretary 
this morning. She is the Acting Chief Financial Officer for 
DOE. I understand that you will not be providing testimony this 
morning but thank you for being here with the Secretary.
    Mr. Secretary, with that, if you would like to begin your 
remarks so that we can turn to questions.

           STATEMENT OF HON. RICK PERRY, SECRETARY, 
                   U.S. DEPARTMENT OF ENERGY

    Secretary Perry. Senator, thank you. It's a privilege to be 
in front of you and the Committee again.
    Senator Cantwell, members of the Committee, each of you, 
it's my privilege to be here, an honor, to discuss President 
Trump's Fiscal Year 2018 budget request. As each of you know, 
it is a great privilege to serve as the 14th Secretary of 
Energy.
    As a former legislator, I might add an appropriator as well 
and a Governor, I am very respectful of the budget writing 
process and know the importance of the work that you're 
undertaking, and I look forward to working with you to finalize 
a budget that we can all be proud of and that serves the 
taxpayers of this country as well.
    In my 3-1/2 months as Secretary of Energy, I have seen 
firsthand the impact of the Department's leadership both 
domestically and internationally. I've traveled around the 
country, been in some of your states. And Senator Cantwell, I 
intend to get to Hanford ASAP, most likely this summer, to look 
at that, to talk to the men and women who are working there, 
visit with those brilliant individuals that are onsite that I 
happen to have a lot of faith in their knowledge of what's 
needed and how to address these issues that are driving their 
mission. So I look forward to being in a lot of your states 
over the course of the next months ahead.
    These labs truly are, as you have all noted either today or 
in previous conversations, national treasures. They're the 
future of innovation in this country. And I have been in 
absolute awe of the diverse scope of the Department's mission 
and the consequential work that we are charged with 
undertaking.
    I have also traveled overseas representing the United 
States at the G7 meeting in Rome and then in Beijing for the 
Clean Energy Mission Innovation Ministerial. I had the 
opportunity to visit Japan and meet with leaders and 
stakeholders about the future of the energy partnership that 
the U.S. and Japan has. And on a very somber note, I toured the 
site of the Fukushima disaster and saw firsthand the absolute 
monumental task that they have before them.
    My trip to Asia, coincidentally, began on the day that 
President Trump announced that we would officially withdraw the 
United States from the Paris Agreement. I delivered his message 
to the world that even though the U.S. would no longer be a 
part of the Paris Agreement, we are still the leader in clean 
energy technology and we are committed to that mission.
    The Department of Energy does many things well. America has 
remained on the forefront of technology for over 40 years 
because of the amazing men and women at these labs. And Senator 
Heinrich, you particularly understand this with the two that 
you have in your state. They wake up every day knowing that 
they will make a real difference in the world. I told them the 
first time I met with them that the greatest job I ever had was 
being the Governor of Texas. But after working here, I've come 
to realize that the Secretary of Energy is officially the 
coolest job I've ever had, Senator. Under my leadership our 
experts at DOE will continue their work for the benefit of 
every American and our allies alike.
    As Secretary of Energy, I'm also a member of the National 
Security Council. This council is supported by DOE and its 
mission is to keep our nation safe. President Trump's Fiscal 
Year 2018 budget request for the Department of Energy provides 
$28 billion to advance our key missions and focuses on 
important investments, including ensuring the safety and 
effectiveness of our nuclear weapons arsenal, protecting our 
energy infrastructure from cyberattacks and other threats, 
achieving exascale computing and focusing the amazing network 
of our national laboratories on early stage research and 
development.
    My goals are straightforward: advance our nation's critical 
energy and scientific R&D mission, strengthen our nuclear 
security, and fulfill our environmental management commitments.
    I've just painted you a rather rosy picture, and while 
there is a lot of good news to report, there are other hard 
conversations that we need to have, as you're well aware. There 
are approximately 120 sites in 39 states that are storing spent 
nuclear fuel or high-level waste. In fact, many members of this 
Committee have waste in their states. We have a moral and a 
national security obligation to come up with a long-term 
solution, finding the safest repositories available. This is a 
sensitive topic for some, but we can no longer continue to kick 
the can down the road.
    As a former legislative appropriator and agency head and 
Governor, I understand how important following the rule of law 
is. I've been instructed to move forward toward that goal. The 
President's budget requests 20--excuse me--$120 million to 
resume licensing activities for the Yucca Mountain Nuclear 
Waste Repository and to initiate a robust interim storage 
program.
    We also need to be good stewards of the taxpayers' dollars. 
Congress has spent $5 billion on the MOX project that is way 
over budget with no end in sight. The Army Corps of Engineers 
estimates the cost is $17.2 billion and a 2048 completion date. 
The money appropriated for this project is money that could be 
used toward other priorities, like national security or cleanup 
at other sites. There is a better, cheaper, and proven way to 
dispose of plutonium. In fact, we're using that process now. I 
look forward to having an ongoing dialogue with many of you 
about these tough but important issues in the days and the 
months to come.
    This budget proposal makes some difficult choices, but it 
is paramount that we execute our fiduciary responsibility to 
the American taxpayer. The President's proposed priorities 
dealing with the core mission of the Department by 
consolidating duplication within our agency is in order and it 
does, in fact, respect our taxpayers. He deserves credit for 
beginning this discussion about how we most wisely spend our 
scarce federal dollars.
    As for me, this isn't my first rodeo. Having been the 
Governor of Texas for 14 years, I managed under some pretty 
tight budget constraints. It wasn't always blue skies and 
smooth sailing. We had some substantial budget shortfalls 
during that period of time that I was Governor, and we were 
able to budget successfully. We faced limited resources at 
times and Texas became a shining example of energy growth, 
economic growth, higher educational standards, and important 
improvements to the environment.
    I will manage the same way at the Department of Energy. And 
we did that in my home state by working together. That's one of 
the things that I want to really bring forward today, my 
intention of working with you. I understand this budgetary 
process, I understand it's a first step, but I am committed to 
working with you, each of you, in the ways that you direct. I 
understand this process, I respect it: set clear goals, manage 
the best and the brightest to achieve those goals, and spend 
scarce resources wisely. With your help, I believe we can 
attain many of the positive outcomes that you expect, that you 
want to see, that the Department of Energy is capable of 
delivering on behalf of the American people.
    So thank you again, Madam Chairman. I look forward to 
attempting to answer your questions.
    [The prepared statement of Secretary Perry follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Secretary.
    I appreciate your enthusiasm for your new role. I am sure 
that will help you get through every day, and some days are 
easier than others, we all know that around here.
    Let me start my questioning with ARPA-E because I am a big 
fan of ARPA-E. I recognize that when we think about the 
Department of Energy and the cool things that you get to do, 
one of the cool things is to really help facilitate some of 
these great, fabulous ideas that change the country, change the 
world. But as we all know, cool ideas that start in somebody's 
garage do not always end up making it through.
    We talk a lot around this Committee about the so-called 
``valley of death'' with energy innovations, and good things 
happen, but they just cannot make it to that point of 
commercialization. When I think of the role of ARPA-E and how 
it has really helped to be that bridge, its investments have 
reportedly spurred nearly $2 billion in follow-on private 
sector funding and spin-off companies to advance technology and 
market. This is exactly the type of thing that we should be 
doing.
    So the question to you this morning to start things off, do 
you support the mission of ARPA-E? And if so, if we eliminate 
it, where are we? Really, where does that put the Department of 
Energy and that space that you should be occupying, which is to 
help really revolutionize and change the world here?
    Secretary Perry. Yes, ma'am. Senator, you asked the perfect 
question and I think, from my perspective, the result of being 
able to deliver the next big thing, if you will. And when you 
think about the Department of Energy and other ARPA type of 
agencies, not directly DARPA, for instance, and the Internet, 
hydraulic fracturing was greatly assisted by the Department of 
Energy. I mean there are, as you shared, extraordinary stories 
about the technology and the innovation that has come out of 
the Department of Energy.
    ARPA-E was created about a decade ago, and it was funded 
the first time in '09. So my point with this--and listen, 
again, as I said, I understand this budgetary process, and I'm 
going to follow your lead when it comes to--I know how the 
money is appropriated, I know how the instructions come. And so 
if the result is we want the Department of Energy to be really 
focused on pushing these new ideas out, getting them to 
commercialization, I am incredibly in support of that because--
--
    The Chairman. Do you think that is a role of the 
Department?
    Secretary Perry. I do. I think that there is a real role to 
play on getting basic research funded, gap funding, to get that 
to the point where you can commercialize it.
    We're going to argue, Senator Franken, about whether, you 
know, ``Is it this much or is it this much?'' or what have you, 
but I don't think we're going to have an argument about--I 
truly believe--and you look at my history. I mean, as the 
Governor of Texas, we helped create an Emerging Technology Fund 
in that state that commercialized technologies that would have 
died in that ``valley of death,'' as you referred to, if the 
gap funding had not been there. I understand that. I support 
that.
    Now, Senator, we're going to have a discussion here and 
debate about, what's the proper structure? Is it the ARPA-E 
structure? If that's what the Congress decides, ``Perry, this 
is the structure we're going to have, you go make it work,'' 
and I will salute and I will go get that done.
    The Chairman. Do you think that the structure has not 
worked in recent years?
    Secretary Perry. I will tell you that I think it's worth 
having a conversation about, and looking at each of these 
programs, having a good open discussion about, ``Is this the 
proper structure? Is this the right way to deliver the 
result?'' And I've got a pretty good background of 14 years of 
managing a pretty big entity.
    What I would ask you, Senator, and each of you, in both a 
personal and a professional way is, I hope you will trust me, 
if you will, to manage this agency to deliver the results that 
you want. Is it absolutely in the structure that we have today? 
I can't tell you yes or no. What I'm going to tell you is I'm 
going to work with you very closely.
    Senator Franken asked me this offstage, and I answered it 
yesterday as well, when somebody said, ``Defend this budget.'' 
I said the budget was written before I got here. It was written 
before the second day of March, the best I can tell, but my job 
is to robustly defend that budget, and I am going to. With that 
said, I highly respect this process, and this is the first step 
of this budgetary process.
    As a Governor, I put a lot of budgets forward. Senator 
Cantwell, I never got one back the way I sent it. But with that 
said, we're in a process. I respect that. I want you to know 
that on the ARPA side of things, I will work diligently to 
deliver for you the results that you expect, you demand, and 
that the American people will salute and say, ``Well done.''
    The Chairman. Well, I think you will find, at least among 
this Committee, that there is good support for what comes out 
of ARPA-E, so I am hearing that you are willing to work with us 
on that and I think that that is important. But again, you have 
good supporters here.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Mr. Secretary, I would like to follow up. I know 
Representative Newhouse had a chance to talk to you about the 
Pacific Northwest labs. And I think when he raised the question 
about the potential of 1,000 layoffs, you tried to reassure him 
that you would manage the lab, ``in a way that continues to 
keep the employment at levels, deliver innovation and 
technology that is needed in this country, that this country is 
going to need.'' Are you suggesting that those thousand 
employees would not lose their jobs or would those employees--I 
am trying to understand where you think this is going----
    Secretary Perry. Yes, ma'am.
    Senator Cantwell. ----because they are so involved in 
innovation. I would say DOE experts from PNNL have been key 
partners in the Fukushima cleanup and the Hanford cleanup, and 
so many other things. I just want to understand where you think 
this is going.
    Secretary Perry. Senator, there are a lot of numbers that 
have been thrown out about there are going to be this many 
people lose their jobs at the labs, and I'm not going to sit 
here in front of you and the Committee and tell you I guarantee 
there is not going to be one person lose their job at a lab. 
I'm not going to do that because that's not realistic. What is 
realistic is to tell you that my priorities are going to be to 
make sure that we get the job done at these labs. It obviously 
requires a lot of really capable, smart, brilliant individuals.
    We have the flexibility with our budget. I hope you will 
consider giving me even more flexibility than maybe previous 
Secretaries had to be able to manage those dollars the best 
that we can to keep those labs both functioning at the high 
level that they are and to keep as many of those individuals 
employed that you're going to need.
    So I understand how to manage during some times that you 
have budgetary challenges. There may be some hard decisions 
that get made about whether or not this number of employees is 
the right amount or not, with the goal being using our 
unexpended balances, using our flexibility for that not to be a 
challenge for our labs.
    Senator Cantwell. Well, look, I will give you this, you are 
not the first Energy Secretary to come before this Committee 
with ideas of changing things, but most of the time I think our 
Committee and the appropriators have probably set those 
administrations straight because we have been the stewards of 
these concepts and prioritizations and continually focus on 
them as regional issues or as national issues. But I am just 
curious, what area do you think we do not need innovation in? I 
mean, in the context of these lab workers and what they are 
working on--cybersecurity, nuclear nonproliferation, Hanford 
cleanup, grid reliability, building efficiency--are any of 
those areas that you do not think that we need to continue to 
innovate in?
    Secretary Perry. No.
    Senator Cantwell. Okay. So none of those would be on the 
chopping block?
    Secretary Perry. Senator, everything is going to get 
analyzed. And again, I'm not going to tell you publicly or 
privately that there is not an employee that's going to get--
lose their job in the process. I'm going to manage it and I'm 
going to manage it in a very well way. But, you know, nothing 
that you said is not an important part of what the Department 
of Energy does. Can we do it better? I think we can. Can we do 
it more efficiently? I think we can. And I'm not just talking 
from a, you know, political standpoint.
    Senator Cantwell. Thank you.
    Secretary Perry. I've done that before.
    Senator Cantwell. I wanted to ask you about worker safety 
at Hanford. This is a critical--I know we only have a few 
minutes here, but all of these issues are critically important 
to our state and very much in the forefront of what is 
concerning. What specific steps are you taking on worker safety 
and will you look at this air tank issue for us? The workers at 
various sites have come up with what they think are more 
workable solutions that are being implemented at other DOE 
locations to help the workers continue to do the cleanup that 
they need, but to be safe and secure on their air systems.
    Secretary Perry. Senator, one of the things that I want to, 
in a global way, just kind of share with you, one of the first 
videos I sent out agency-wise was about worker safety, about 
our commitment to it, about if they see--if workers see an 
issue, that they should never fear that they cannot report that 
back to the Secretary of Energy, all the way up, if that's 
what's required. And I think that was an important message that 
we sent out there, our commitment to the safety of these 
workers. We're going to continue to find ways to implement 
programs, whether it's--you know, your site may be the biggest 
challenge that this country has got, Hanford.
    Senator Cantwell. No, Hanford is the largest nuclear waste 
cleanup site in the entire world.
    Secretary Perry. Yes, ma'am.
    Senator Cantwell. And that is why you cannot do it on the 
cheap. So anyway----
    Secretary Perry. There's a difference between doing it on 
the cheap and doing it as efficient as you can, and I want to 
have that conversation with you and the Committee often.
    Senator Cantwell. We can't wait to welcome you to Hanford 
as soon as possible.
    Secretary Perry. Yes, ma'am.
    Senator Cantwell. Thank you.
    The Chairman. Thank you.
    Senator Flake.
    Senator Flake. Thank you.
    Thank you, Mr. Secretary. Good to see you again.
    Secretary Perry. Thank you, sir.
    Senator Flake. During the confirmation process, we 
discussed some of the issues that customers in Arizona have had 
with WAPA, the Western Area Power Association. The effective 
delivery of federal hydropower around Arizona and the rest of 
the West, as you know, is very important to rural and urban 
customers alike. And as the chairman of the Water and Power 
Subcommittee, I see our oversight role as improving the 
efficiency and transparency at WAPA.
    Ratepayers and taxpayers deserve to know how their money is 
spent, to know that it is spent wisely, and for the intended 
purpose. I know that WAPA is staffed with a lot of good people, 
but unfortunately a string of past fraudulent spending has cast 
a shadow over the agency's finances. Fraudulent spending of 
ratepayer money has been recently reported by Arizona 
television stations and by newspapers. This March, the DOE 
Inspector General (IG) reported a list of actions taken by WAPA 
to address concerns over fraudulent or improper spending in the 
Government's Purchase Card Program; however, the DOE report did 
not, ``determine the effectiveness of corrective actions in 
addressing the identified weaknesses.''
    Then just last week it came to my attention that on several 
instances in sworn testimony this spring, a senior WAPA 
official has said that problems with the Government's Purchase 
Card Program have not been adequately fixed. Now, it is 
troubling to see that there is disagreement at the highest 
levels of WAPA over whether sufficient safeguards are in place 
to stop this from happening again.
    My question for you is--obviously it is unacceptable what 
we have seen--the investigation's news stories, hearings, 
audits, and after all that, there could still be waste, fraud, 
and abuse at WAPA. Do you agree that that is an untenable 
situation?
    Secretary Perry. Yes. And if I may just resound on that. 
We, at this particular point in time, after the IG's 
investigation, are unaware of any current fraud or waste or 
abuse, for that matter, at WAPA. It is unacceptable. We 
hopefully will send that message loud and clear, that the IG 
inspection did that as well, that, number one, that we're 
watching and we're paying attention.
    If from your perspective or any individual that you make 
reference to, if you think that there is a continued 
investigative effort that needs to come from DOE, can we have 
that conversation and go forward from there? Because it's just 
unacceptable, sir. Anytime those kind of activities occur, 
people lose faith in government. And I came to this job to be 
of assistance, to help, and I hope I can be.
    Senator Flake. Well, thank you. What I think would be 
helpful is to follow up with the IG at DOE to ensure that 
procedures are put in place to ensure that this cannot happen 
again.
    Secretary Perry. Yes, sir.
    Senator Flake. Apparently some believe that they are not, 
and that the IG--their report is saying that it did not 
determine the effectiveness of corrective actions in addressing 
the identifying weaknesses. So obviously they need to do that. 
And also, if you could request of the IG to ensure that money 
from the fraudulent and improper purchases has been recovered.
    Secretary Perry. Yes, sir.
    Senator Flake. Thank you.
    Just in the minute I have left, research done at DOE. 
Obviously, the budget makes some tough choices. In a time of 
tight budgets, we have to prioritize this kind of spending. I 
am exploring a bipartisan effort to help DOE identify some 
specific clean energy goals in the area of advanced nuclear 
reactor technology and grid-scale storage.
    With intermittent power coming on increasingly, 
particularly in the West, then we have to have clean baseload 
power. This puts pressure on nuclear power that was not there 
before. We have to make sure that research done at DOE can help 
us into the next generation of nuclear and also grid-scale 
storage to take advantage of intermittent sourcing.
    Secretary Perry. Yes, sir. I'll just quickly--I happen to 
think--and Senator Murkowski and I have had this discussion 
from our first meeting--small modular reactors and the work 
that has been done and the work that will be done, I happen to 
think, is one of the areas that we need to spend some 
substantial time and resources on in our national labs. INL, in 
particular, is working on that. We've got the private sector, 
we help fund NuScale--that's out now, moving toward 
commercialization. So I think we're making some good progress--
not fast enough to suit me and not broad enough to suit me.
    Senator Flake. Thank you.
    The Chairman. Thank you.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    It is great to see you, Mr. Secretary. I want to start by 
thanking you for your trip to New Mexico. I think it meant a 
lot to the folks at the Waste Isolation Pilot Plant (WIPP). It 
certainly meant a lot to the folks at Los Alamos. I know Sandia 
is looking forward to getting to connect with you at some point 
as well. I think one thing you have heard from multiple 
perspectives this morning is the importance of safety. And in 
my conversations with you, I want to thank you for your 
commitment to that because whether it is Los Alamos, WIPP, 
Hanford, all these places, worker safety has to be number one.
    As you know, Los Alamos, which I believe you visited in 
May, has long been the nation's Center of Excellence on 
plutonium research. Is it correct that this budget, FY18, the 
request maintains Los Alamos's central role in the nation's 
plutonium mission and that it is your intent to stay on 
schedule and meet the statutory requirements for production?
    Secretary Perry. Yes.
    Senator Heinrich. That is good to hear. Is it also your 
intention that Los Alamos continue into the future to fill that 
important mission for the nation as was approved by the Nuclear 
Weapons Council?
    Secretary Perry. Yes, sir.
    Senator Heinrich. I will just ask you one more thing on 
this front. Can you assure me that you will make the final 
decision on additional plutonium facilities based solely on 
strictly objective criteria, things like cost, schedule, 
compliance, with your mission requirements?
    Secretary Perry. Yes.
    Senator Heinrich. Great. I want to ask you something that 
is not strictly a budget-related item, but it is certainly 
timely and is incredibly important from an economic 
perspective. As you well know, wind generation in West Texas 
has really taken off over the last few years. Now it accounts 
for about 23 percent of power generation for the Electric 
Reliability Council of Texas, ERCOT, as you probably know it. 
Further, ERCOT believes that close to 100 percent of the new 
electricity generation that is going to be added to Texas over 
the next 10 years is likely to be wind or solar. Do you agree 
with ERCOT's technical assessment that they can accommodate 
such high penetration levels of renewable energy?
    Secretary Perry. I'm going to be cautious about answering 
that with definity. We're in the process of doing a grid study 
now----
    Senator Heinrich. That is why I bring it up.
    Secretary Perry. ----that I think will give a better, 
certainly more in-depth, answer than I could just off the top 
of my head today. So if I could punt this to the first week in 
July, we should be getting that finalized. You obviously, and 
the members, will have access to that as we talk about it. But 
you know my history with wind. You know my history with having 
a very broad portfolio, and I bring that to the Department of 
Energy. Nothing has changed from that perspective.
    Senator Heinrich. I raised it largely because ERCOT is 
already managing dramatically higher levels of renewables than 
most states in the nation. So I think looking at what they have 
been able to do is instructive for whether or not we actually 
have a problem anywhere else.
    Secretary Perry. Yes, sir. And what I would remind folks is 
that Texas has a rather substantial baseload energy production 
as well. And that's probably where we're going to be getting 
down into the weeds on this, Senator, is that, what is the 
percentage of baseload, whether it comes from fossil fuels 
either from coal or natural gas or from nuclear that maintain 
that baseload? And obviously, having solar and wind as part of 
your overall mix we think is a good--I think, let me put it 
that way, is a very good thing.
    Senator Heinrich. Yes. I do not actually remember baseload 
being a term when I was studying engineering because we have 
always had a situation where for maintenance purposes, you take 
entire facilities offline. So just like solar does not work at 
night, also coal-fired and natural gas-fired facilities get 
taken offline in their entirety in many cases.
    I think we ought to be looking at reliability and being 
able to manage the grid effectively for that reliability as 
opposed to saying, well, this is good and that is bad, or vice 
versa.
    Secretary Perry. Absolutely. I think you're correct in 
that, particularly in the sense of making sure that you have 
enough energy sources that are going to be reliable and stable 
and economical. That's what the public wants. I mean, you and 
the engineers and myself, we'll all have a great discussion 
about some intricacies here, but the American people want to 
know that when they flip that switch on--when it's 117 degrees 
in Las Vegas as it was two days ago--that that air conditioning 
is working.
    Senator Heinrich. There might be something to this global 
warming thing after all. Thank you, Secretary.
    The Chairman. Thank you, Senator Heinrich.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chair.
    Great to see you again, Mr. Secretary.
    Secretary Perry. How are you?
    Senator Barrasso. Thanks for being here today.
    I want to talk a little bit about some things in the budget 
request. The budget request includes some steep cuts to the 
Fossil Energy Research and Development Program. That is a 
program that includes carbon capture and storage research, 
which the Department proposes to cut by more than 80 percent. I 
am concerned that these proposed cuts conflict with what the 
President has said in terms of his goals to bring back coal 
jobs and increase coal production.
    In 2005, coal accounted for about half of the U.S. power 
generation. This past year, it declined about 30 percent. So I 
think we have to reverse this decline in order to maintain a 
reliable and resilient electric grid. I think it is critical 
that we need to have all of the energy sources.
    Now, there are emerging technologies, like carbon capture 
and storage, that have the potential to reverse coal's decline 
while also reducing emissions. I think successfully achieving 
the commercialization of these technologies is both going to 
protect the environment and ensure that coal plants remain in 
service and competitive in energy markets.
    So could I just ask you to talk a little bit about the 
assurances that you can give us and give me that the 
Department's budget request is sufficient to support the 
development and the commercialization of the clean coal 
technologies?
    Secretary Perry. Senator, as I said earlier, maybe before 
you stepped in, I'm going to do my best to vigorously defend 
this budget. Again, it was written before I got here. But with 
that said, I understand this budgeting process, and 
prioritizing parts of it that may on the face of this budget 
look like there's been massive cuts over here, I hope we'll 
have the back-and-forth in the management of this budget where 
we prioritize some things and we fund them and we get good 
results. CCUS is one of those.
    On our trip to China at the Clean Energy Ministerial, we 
were able to get them in an international way to agree to put 
that carbon capture utilization and sequestration issue at the 
forefront of the Clean Ministerial to do some investigative 
work to have that conversation internationally. I think that's 
good not only for the environment, I think it's good for 
American technology.
    As you know, one of my first acts as Secretary of Energy 
was to go to the Petra Nova plant right outside of Houston, the 
world's largest sequestration utilizing coal capture----
    Senator Barrasso. Sure.
    Secretary Perry. ----and it is a fascinating--we had this 
conversation with Zhang Gaoli who is the Vice Premier in China. 
They are interested in this technology.
    I mean, I think we're doing what not only the American 
people but this Congress wants us to do as a country, and that 
is to promote these technologies that are coming out of, in 
this case, DOE in a lot of the cases, and the private sector, 
working together.
    So I'm committed to promoting that technology, committed to 
this ``all of the above'' approach, which the carbon capture 
side of coal utilization is very important. We're going to use 
it, we're going to use it wisely, and we're going to use it in 
a way that affects our environment in a positive way and in a 
way that affects our economy in a positive way.
    Senator Barrasso. One other thing. The Department's budget 
proposal includes a significant cut to the Office of Electric 
Delivery and Energy Reliability, and that is the program that 
is responsible for research and development to improve grid 
reliability and security in terms of attacks.
    I know you talked about in your prepared remarks among the 
most critical missions of the Department is to develop the 
science and the technology that will assure Americans of a 
resilient electric grid and energy infrastructure. We all 
agree. According to the North American Electric Reliability 
Corporation's report last year on the terms of cyber and 
physical security threats to the grid, they said they continue 
to increase, becoming even more serious. We are hearing it all 
across the country, and not just to the electric grid, but all 
components.
    So I am just concerned that less research and development 
for this innovative work could place our nation's grid at risk 
to these threats. So if you could spend a little bit of time 
talking about how we can make sure that the security is there 
for the grid for the future.
    Secretary Perry. Yes, sir. I am deeply aware of the 
President's Executive Order, the Department of Homeland 
Security, the Department of Energy, taking a lead on 
cybersecurity. Even before that was done we had stood up three 
of our national labs in what is referred to as the CyberCorps 
to be working on. It is a prioritization.
    When I had all the lab directors in, that was one of the 
things they heard, that we were going to spend the resources, 
we're going to spend the focus, and we're going to have the 
result of being able to deliver to the private sector and to 
the government the challenges and the fixes, if you will. And 
we're working on that diligently.
    And I'm committing to you, Senator, that that is a top-tier 
priority at the Department of Energy, and I suggest to you 
again that those labs have the capability. INL has its own grid 
out there where they can go and break things and infest it, if 
you will, and duplicate what we're seeing.
    So I'm concerned about it, as an American citizen. I am 
confident that the Department of Energy has the intellect, the 
capability, and I will suggest to you the funding, to do what 
both the President and you, as Members of Congress, expect us 
to deliver.
    Senator Barrasso. Thank you, Mr. Secretary.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    Welcome back to the Committee, Secretary Perry. I do not 
envy your position. You seem to be a defense counsel for 
someone charged with murder, and you seem to be saying, ``I 
know he's guilty, but I'm going to give him a robust defense.'' 
So you are doing a great job.
    Secretary Perry. That's an interesting observation, sir.
    [Laughter.]
    Senator Franken. Two days ago, the American Energy 
Innovation Council, a group of ten current and retired 
corporate leaders, including Norman Augustine, former CEO of 
Lockheed Martin, and Bill Gates, released a report about the 
importance of federal investment in energy research and 
development. The group recommends vastly increased funding for 
ARPA-E from $300 million to $1 billion a year, and increasing 
federal investment for advanced energy innovation to $16 
billion per year, 2-1/2 times the total amount for energy 
research proposed in your budget.
    Secretary Perry, the President's budget is frankly anti-
innovation. It does the exact opposite of what the American 
Energy Innovation Council recommends. It absolutely guts 
private investment and research, including slashing energy 
research programs by $3.1 billion, and cutting renewable energy 
and energy efficiency research by nearly 70 percent. And, 
again, on ARPA-E, the President's budget completely eliminates 
them.
    You said at a hearing yesterday that the budget was written 
before you were confirmed, and you said that today. But do you 
support this Administration's budget cuts?
    Secretary Perry. Senator, I'm going to do everything I can 
to deliver to the American people within the bounds of the 
budget that you write. And again, I understand and support, 
respect, this process.
    Senator Franken. Okay. Of course.
    Secretary Perry. Is ARPA-E, the result of ARPA-E, a good 
thing? Yes. Is ARPA-E the holy grail of how government needs to 
be structured? I will suggest to you maybe not.
    Senator Franken. Let's talk about some of these things. 
During your confirmation hearing you talked about how the 
Federal Government helped in developing technologies central to 
hydraulic fracturing.
    Secretary Perry. Yes.
    Senator Franken. And if we talk about baseload, if we are 
talking about baseload, natural gas, that is really important, 
right?
    Secretary Perry. I will suggest to you they are, as is 
nuclear, as is clean coal.
    Senator Franken. So that would be a yes. Now, the most 
successful one-fifth of ARPA-E projects have raised $1.8 
billion in private funding and launched at least 56 new 
companies. You know, that is--$1.8 billion is much more than 
ARPA-E has expended during the first seven years of its 
funding. This whole idea that there is not a role--and I am not 
going to make you defend it because--I just want to say it is 
the whole idea that the valley--that the government's job is 
not to take things through the valley of death is wrong, and it 
is just that is the government's job in certain technologies, 
and we need to do that.
    We tried in the '80s, the government cut energy funding by 
52 percent. Do you know what happened to private research 
investment then?
    Secretary Perry. No, sir.
    Senator Franken. Okay. Well, they fell by 40 percent. 
Private industry does not fill in in these kind of emerging 
technologies when the government does not do it. What the 
government does is incentivizes private industry to jump in. So 
industry--well, actually industry cut energy research by 79 
percent when the overall R&D expenditures were cut.
    So let me turn to climate change because that is what we 
are--oh, I am out of time. I did wait a while here because of 
the health care thing that you guys were doing.
    [Laughter.]
    Senator Franken. So do you think----
    The Chairman. Senator Manchin is [off microphone] here.
    Senator Franken. I know he is. Okay.
    The Chairman. [Off microphone.]
    Senator Manchin. Can I start?
    Senator Franken. Yes, I guess you can.
    [Laughter.]
    Go ahead.
    The Chairman. I think we will go to Senator Manchin.
    Senator Franken. Yes.
    The Chairman. But we will have a second round, Senator 
Franken.
    Senator Franken. Okay.
    Senator Manchin. Thank you so very, very much, Madam 
Chairman.
    First of all, Secretary Perry, it is good to see you back 
again. You were here last on January 19th for your hearing. At 
that time, I want the Committee to know that we talked, we had 
a very good conversation, and you committed when I asked, 
``Would you come to West Virginia?'' You are coming to West 
Virginia July 7th to see the National Energy Technology 
Laboratory (NETL) and to see all the advances we have made in 
clean coal technology, and I appreciate that.
    Secretary Perry. Yes, sir.
    Senator Manchin. You are a person of your word, and I thank 
you.
    Secretary Perry. Yes, sir.
    Senator Manchin. I also remember, Mr. Secretary, when we 
were Governors together in 2005, I never forgot this. We were 
sitting in the Southern Governors Association meeting, if you 
recall.
    Secretary Perry. Yes, sir.
    Senator Manchin. Hurricane Katrina was getting ready to 
hit. I asked you at that time, I said, ``Rick, is this 
hurricane going to have any effect on you?'' and you said, 
``Joe, I've been told by my weather people that it's going to 
miss us.'' It might have missed you, but you got hit directly--
--
    Secretary Perry. The results didn't miss us.
    Senator Manchin. The results did not miss you. I will never 
forget that. You had over a quarter of a million people come to 
your state looking for refuge, and you took them all in.
    Secretary Perry. Yes. Senator Murkowski, if I could just 
add one thing here, and I know it's a little bit off subject, 
but I think it's important, about working together. This was a 
Democratic Governor of West Virginia and a Republican Governor 
of Texas. I got a call from the Governor of Louisiana then, and 
she said, ``Can you handle 25,000 people?'' and I said, ``Send 
them.'' About 125,000 later, I'm on the phone to him saying, 
``Hey, Joe, can you send some aircraft to help us move some 
people?'' because we had another hurricane that came in and 
moved all those people.
    Senator Manchin. Rita came right behind.
    Secretary Perry. Yes, sir.
    Anyway, had it not been for Joe Manchin and the people of 
West Virginia, and the National Guard of West Virginia, we'd 
have had some people in some real sling. I will never forget 
that, sir. Thank you.
    Senator Manchin. Well, I think that is the way we are 
supposed to work here, too.
    Secretary Perry. Yes, sir.
    Senator Manchin. I know how we did it as Governors, but it 
is the way it should work in Congress, the Senate, and 
Congress, and we are trying. The Chairman and I work very much 
along those lines. But anyway, we sent six C-130's and we sent 
1,200 troops.
    Secretary Perry. Yep.
    Senator Manchin. And we worked well together. With that 
being said, I want to thank you again that you are coming and 
we are looking forward to your visit. Senator Capito is looking 
forward to your visit, and we will entertain you in a 
bipartisan way. With that, we say thank you.
    Let me go to the thing I am concerned about. I understand 
that the study of our grid's reliability and resilience that 
you have undertaken--and I want to thank you for undertaking 
this--has drawn some criticism. I do not know why you would 
draw criticism from finding out how secure the grid system is 
and what it takes to energize this grid system. As being both 
former Governors, I think we are on the same page regarding 
what is best to be left alone and we should be collaborating 
with the Federal Government because we have got to make sure 
this thing does not collapse on us. And the study fits into 
that collaboration column.
    In West Virginia, our existing installed capacity is over 
90 percent coal, and we have eliminated all of the old plants. 
We have basically supercritical plants with scrubbers, low-NOx 
boilers, baghouses, and we are looking for that new technology. 
I believe the Department of Energy is taking a good look at 
this issue of how coal should play a part in our national 
defense, and I thank you for that. It is not about one fuel 
type over another, it is, ``how do we energize and secure the 
grid?''
    So can you please comment on why you believe the study is 
so important and, basically, focus on ensuring the reliability 
that the country depends on? I think you said, ``When it is 115 
degrees and they flip the switch, they want something to 
work.''
    Secretary Perry. Yes, sir. Senator, it is very much, I 
think, one of the--I'm so glad that we got tasked with----
    Senator Manchin. Yes.
    Secretary Perry. ----this grid reliability because I think 
it is important for us to have this conversation. I think all 
of us would love to see blue skies and clean air everywhere in 
the world.
    Senator Manchin. So everyone knows what we are talking 
about, Mr. Secretary, we are talking about baseload. Baseload 
runs 24/7 uninterrupted.
    Secretary Perry. Yes, sir.
    Senator Manchin. When you have 60 days of coal laying 
there, you are not going to interrupt that, they are going to 
feed it, and that is going to give you power.
    Secretary Perry. Yes, sir.
    Senator Manchin. Nuclear gives you that. Gas is coming on 
strong. We are depending on it.
    Secretary Perry. Senator, I'll just mention this in 
passing. Yesterday there were places where they had either 
brownouts or blackouts in some of the western states. I saw 
this on the news. I'm not reporting it as guaranteed fact, I'm 
just telling you we know that when there is that kind of stress 
on our grid system, that we need to be prepared for that. And 
so, it's so important that we economically, and from a national 
security standpoint, have these multiple sources of energy that 
will be there when we need it, when it's called on. You know, 
having 60 days of coal on the ground I happen to think is 
important. Having nuclear plants that are functioning and being 
able to move the waste offsite of those so that that industry 
knows that there's going to be a future for them is important.
    I think the natural gas that we are blessed to be able to 
retrieve now is an incredibly important part of that. Our wind 
energy and our solar energy and our hydro--all of those 
collectively are part of a portfolio that we've got to 
protect--and making sure that our grid, when it's stressed to 
its highest levels, will still be able to keep that air 
conditioning running in a place that temperatures are reaching 
120 degrees outdoors. I don't want to take that call that a 
family has been put in distress or even died because we didn't 
do our work to make sure that there is a baseload of energy to 
take care of the needs that this country has 24/7, 365 days out 
of the year.
    Senator Manchin. Well, I think it is one of the most 
important studies you all have taken on and I thank you for it, 
because I think it is going to be imperative for the American 
people and the security of our nation that we find out, how do 
we keep these grids alive and keep the energy flowing?
    Secretary Perry. Yes, sir.
    Senator Manchin. So I want to thank you very much, Mr. 
Secretary.
    Secretary Perry. Yes, sir.
    The Chairman. Thank you, Senator Manchin.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Mr. Secretary, it is good to see you.
    Secretary Perry. Yes, sir. Thank you, sir.
    Senator Daines. As you know, Montana is an incredible state 
known for fly fishing, elk hunting, for the great outdoors, 
Glacier National Park, Yellowstone National Park. We are also 
an energy state. We have more recoverable coal than any state 
in the United States. And I think, as Montanans, we strike a 
pretty good balance, one that believes in the importance in 
developing our natural resources because without doing that, we 
do not have jobs; low-cost, affordable, reliable energy 
sources; tax revenues for our schools and our teachers. At the 
same time, we work to protect our environment.
    As Montanans, may we always be a state where that Mom or 
Dad can go down to Walmart and buy their elk tag, that we do 
not become a state where only the rich and famous can afford to 
live there.
    Secretary Perry. Yeah.
    Senator Daines. One of the ways to do that is ensure that 
we keep developing our natural resources responsibly. Coal, 
oil, gas, they are an important component of our economy, yet 
we also have a large amount of hydroelectric power and some 
wind. We have these large deposits of coal. We have critical 
minerals, which we develop responsibly and safely. And I really 
do believe we could bring this Montana balance on a national 
scale. I think clean coal technology will play an important 
role in that going forward.
    Global energy demand is slated to grow, and so is the need 
for coal. I really do believe, as we think about the longer-
term here, we need to lead in this important technology 
development.
    I want to talk for a moment about energy exports, Mr. 
Secretary. I was struck by some data I saw, in fact, at an 
energy summit that I put on in Billings, Montana, last year. We 
took a look at the big picture, the long-term, and there are 
projections around what is going to happen between now and 2050 
globally. And every projection is simply that, it is a 
projection, but it was from the U.S. Chamber, a reliable and 
good source of information. They tell us that the global 
population will increase by about 1.6 billion people between 
now and 2050. They also told us that energy demand is going to 
increase about 85 percent between now and 2050.
    With the growth in global energy demand, with the U.S. now 
playing a larger role in supplying Europe and East Asia with 
coal and liquid natural gas, how do you see the Department's 
budget supporting energy exports? Because I think, and I have 
heard you say it, you said it is not about energy independence, 
it is about global energy dominance, and I completely agree. I 
think it is so strategic from an economic viewpoint going 
forward but also from a national security viewpoint and the 
world's security.
    Secretary Perry. Yes, sir. Thank you, Senator Daines.
    Spending some time up in Montana this last year, I was 
struck by two things. One, just the natural beauty of the 
state--it's extraordinary. I understand why some folks from my 
part of the world want to spend their summers up there.
    Senator Daines. And spend their money, too.
    Secretary Perry. But the other thing, the fact that really 
hit me, and I didn't understand initially, was that Montana is 
49th in the nation in wages. And one of the reasons is because 
of the attack that we have seen historically on that form of 
energy, on coal and also the timber industry. The regulations--
and generally speaking, these are government regulations, and 
Federal Government regulations--have really impacted your state 
in a very negative way. President Trump has clearly given us 
instructions, whether it's myself or all of us----
    Senator Daines. Yes.
    Secretary Perry. ----you know, Congress--or I should say 
Secretary Zinke, for instance, who knows your state very well, 
that putting regulations into place that absolutely take care 
of our beautiful resources that we have but also keep in mind 
the men and women, whether they're tribal members or whether 
they're citizens of a coal strip, that we understand the rules 
and regulations that we're going to be making. Being able to 
sell that coal.
    I had the President of Ukraine in the office on Monday. 
Poroshenko and I were talking about U.S. coal being able to be 
delivered to Ukraine so that they don't have to rely upon the 
pressures from Russia at this particular point in time. 
President--or, excuse me--Prime Minister Modi is in town soon 
to talk to the President, and I can assure you that country is 
going to be the most populous country in the world in the very 
near future. Their electricity demand is going to be 
monumental. We can be a part of that: American LNG, American 
coal, American technology. And it's that CCUS that I was 
talking to the Vice Premier of China about, and our being able 
to deliver that.
    America, I don't think, has had a greater opportunity in 
our history than to be able to play a powerful role in securing 
our national defense, making sure economically that we are a 
massive player in the global marketplace, and having an impact 
on the environment. Because the way Texas drove down its 
emissions back in the 2000's partly was transferring away from 
those older inefficient power plants to natural gas, and 
American LNG can help do that.
    So we have an extraordinary opportunity, Senator, and I 
hope that the DOE, and I feel very confident that we will be 
working with you to find those strategies which we can put in 
place to promote American energy, American technology, and 
strengthen our security and our economy.
    Senator Daines. Secretary Perry, thank you. I am out of 
time, but I want to thank you for your support in that area and 
your vision. I will tell you when Vice President Pence came out 
to Montana several weeks ago, he met Secretary Zinke in 
Billings. I flew out with the Vice President from DC and the 
very first place that he went as Vice President, his first 
visit to Montana as Vice President, we jumped in the Suburban 
and we drove out to the Crow Indian Reservation----
    Secretary Perry. Yes, sir.
    Senator Daines. ----to the Westmoreland coal mine----
    Secretary Perry. Yes, sir.
    Senator Daines. ----and we rode horseback with the 
Secretary and the Vice President, the three of us rode horses 
up to tour the mine. Those jobs for Indian Country are 
critical. If they lose those jobs there, their unemployment 
rate goes to 80 percent. So----
    Secretary Perry. Yes, sir. It's unacceptable.
    Senator Daines. It is. Thank you.
    Secretary Perry. Yes, sir.
    The Chairman. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    Secretary Perry, welcome back to the Committee.
    Secretary Perry. Yes, ma'am.
    Senator Cortez Masto. When you were nominated for Secretary 
of Energy, we had a frank and serious conversation about my 
grave concerns about siting nuclear waste at Yucca Mountain. 
Since that time you visited the site, and thank you for the 
courtesy, you called me ahead of time to let me know you were 
going there. But since that trip you went from touting the 
importance of state sovereignty to a full-throated support for 
depositing the nation's waste in Nevada against the will of my 
state, undermining a state's right to defend its communities 
against dangerous nuclear waste. What has prompted such a 
change in your viewpoint?
    Secretary Perry. Senator, I, with all due respect, disagree 
with your analysis of my position. Nothing has really changed. 
I think it is wise for us to have a very open conversation with 
this country about the moral obligation that we have as a 
people. There are statutory requirements for us to move this 
waste. There are multiple options about where that waste could 
go.
    As I clarified yesterday, there is no plan in place to put 
that in a particular place at this particular point in time, 
but I think we need to be looking at all of our options and 
having an open and a productive conversation about how--I don't 
think it's wise for us to continue to leave high-level waste, 
you know, spent rods in pools, not unlike what they had at 
Fukushima, and particularly that over in California is in the 
Ring of Fire. I mean, geologically you could have an event that 
is not unlike what they had in Fukushima, and----
    Senator Cortez Masto. Secretary Perry, I appreciate it, and 
I received your comments, but let's talk about Yucca Mountain. 
I do not disagree we need a long-term plan, but the concern 
that I have, and many in our state have, is specifically when 
it comes to Yucca Mountain, because I will tell you, your 
predecessor, Secretary Moniz, and the DOE, they were steadfast 
in the position that the Yucca Mountain program is unworkable. 
In fact, the Department concurred with the recommendation from 
the Blue Ribbon Commission on America's Nuclear Future that a 
phased adaptive, consent-based siting process is the best 
approach to gain the public trust and confidence needed to site 
nuclear waste facilities.
    Let me just say this. You have previously stated that you 
want to have a good working relationship with as many Governors 
as you can. I can tell you, as you well know, that Governor 
Sandoval is incredibly concerned about not only your talk and 
discussion on Yucca Mountain but doubling down on talk about 
interim storage at the Nevada National Security Site.
    In fact, let me just say this. The Western Governors' 
Association, which includes your predecessor in Texas, recently 
passed a policy resolution which states that a nuclear waste 
facility should not be located within the boundaries of any 
western state or U.S. flag island without the written consent 
of that Governor or territory. That is all that Nevada is 
asking for, is consent-based siting, which your predecessor, 
Secretary Moniz, and the Blue Ribbon Panel have agreed that is 
what should occur. That is what we are asking you to do.
    So why is that such a difficult concept? Why is that 
something that you think should not occur and, in fact, this 
Yucca Mountain process should go forward, and interim storage, 
which is a whole new conversation that we had not heard before, 
at the Nevada National Security Site? I am confused.
    Secretary Perry. Let me help with the last issue that you 
brought up, Senator, as I can. I was making reference to an 
article that was by a Nevada state senator, that he pitched 
that out as an idea. I think about a May 14, 2017, article that 
I picked up. That was what I was making----
    Senator Cortez Masto. Well, I appreciate that, and I will 
tell you that that is not something that we are going to 
support in----
    Secretary Perry. Okay. But, Senator, I'm not--I think it 
was taken out of context.
    Senator Cortez Masto. But let me just say this, what we are 
looking for is at least some sort of commitment that you are 
looking for at least the science to prove that it is safe. I 
mean, even your Deputy Secretary, Dan Brouillette, recently 
commented when he was in here in his nomination hearing that if 
the science is not there, that we would not support the 
project.
    So if you cannot get behind consent-based siting, which is 
what all states should be--we should be looking at for all 
states and individuals there, then at least look at the science 
and commit that if the science is not there and it is not 
workable, then we should not store nuclear waste or spent 
nuclear waste at Yucca Mountain. Can you commit to that?
    Secretary Perry. Sure.
    Senator Cortez Masto. Thank you.
    Secretary Perry. I can. And I think it's important for us 
to do two things: pay attention to the science and also to the 
rule of law.
    Senator Cortez Masto. Thank you. I appreciate that.
    The Chairman. Thank you, Senator Cortez Masto.
    Secretary Perry, just so you do know, I have been asked to 
submit as part of the Committee record here today a letter that 
Senator Cantwell and I received, as the Chairman and the 
Ranking Member, from a colleague of Senator Cortez Masto, 
Senator Heller, also from Nevada, with a request specific to 
the Department about repository costs in previous studies and a 
request for new cost studies on geologic disposal in 
repositories. So this will be included as part of the record. I 
believe that you may have already received it or are in the 
process of receiving it, but he has asked for that request----
    Secretary Perry. Yes. I will certainly take it under 
consideration, Senator.
    The Chairman. ----and I have complied with that.
    [The information referred to follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
 
    Senator King. Thank you, Madam Chair.
    Mr. Secretary, I do not envy you today because you have 
been sent up here to defend the indefensible. This budget is 
perhaps the worst budget for any agency that I have seen in 12 
years in public life in terms of corresponding to national 
priorities. It is amazing. You made a statement in your opening 
statement when you first appeared before this Committee in your 
confirmation hearing. You said, ``When it comes to climate 
change, I'm committed to making decisions based on sound 
science and also take into account the economic impact.''
    This is not a sound science budget, Mr. Secretary, this is 
a non-science budget. You are cutting the very areas where the 
science, which we need to make good policy decisions, is going 
to be examined. Earlier today you said the U.S.--this is a 
direct quote--``The U.S. is the leader in clean energy 
technology, and we are committed to this mission.''
    The budget does not say that: ARPA-E, 93 percent 
essentially eliminated; you are even cutting the Energy 
Information Agency 3.5 percent which just provides information 
about our country's energy situation; Energy Efficiency, 69.6 
percent cut; Office of Science, 17 percent--those are the 
national labs.
    By the way, there are 56,000 people that work for the 
national labs. The budget, I am quite confident, is largely 
personnel. So a 17 percent cut in a 56,000-person agency is 
about 9,500 people. Now probably there are other areas that can 
be cut, but to come here and try to tell us that you are about 
sound science when you are cutting the very departments, the 
very portions, of your essential agency that are going to give 
us the science it does not pass the straight face test, Mr. 
Secretary.
    I like you, you and I were Governors together, but I think 
you have been sent on a suicide mission here. I want you to go 
back and tell the people that are pushing you to do this, ``I 
can't do it. It's not responsible.'' If you can find a question 
in there, you are welcome to it.
    [Laughter.]
    Secretary Perry. I was looking for it, sir.
    Senator King. Well, I want to know, how do you justify 
these giant cuts? And don't tell me about reorganization. You 
cannot cut something by 69 percent and say you are going to 
find efficiencies.
    Secretary Perry. Governor, here is what I would tell you, 
is that if we're going to continue to do everything like we've 
always done it, then we're going to probably continue to get 
the same result. I hope what I can tell you is that I 
understand this budgeting process, I respect it, and I bring a 
rather substantial management history of running big things and 
doing them in a fairly substantial way. Sometimes we had the 
money that most agency heads thought that we needed, sometimes 
we didn't. But I hope that we will--we can agree that this is a 
good starting point----
    Senator King. No, it is not a good starting point. It is a 
terrible starting point.
    Secretary Perry. Well, it's--let me just say it's a 
starting point.
    Senator King. If you want to make it, let's say, 4 or 5 
percent, but 69.6 percent is not a good starting point. I could 
meet you in the middle, and it is still not adequate.
    Secretary Perry. Well, then we'll work together to try to 
get it to be adequate, Senator, is about the only answer I know 
to give you.
    Senator King. Well, let me go to the other one that is--it 
is awful--Electricity Delivery and Energy Reliability, 47.8 
percent cut. Are you aware that our grid is incredibly 
vulnerable right now to cyberattacks?
    Secretary Perry. I probably am more so than most people.
    Senator King. Well, how in the world can you allow people 
to say you are going to cut the Department that works on energy 
reliability and delivery, that is the grid, by almost 50 
percent?
    Secretary Perry. Senator, again, I go back to if we get 
some flexibility in our budgeting, I feel pretty confident 
we'll be able to protect the grid, because that's not the only 
place that we're doing any grid work, by a substantial margin. 
There are substantial places in our national labs, whether it's 
INL and other places, where we're doing work to protect the 
grid and to analyze the grid.
    Senator King. Well, that is a national security concern, 
and I want to follow up with you on that, and if there are 
other places and if you can move money around, but cutting 
money for the reliability of the grid right now is a national 
security threat. I serve on other committees around here that 
deal with this issue. It is a serious national security threat.
    I guess as you have pointed out and you have said several 
times, there is a process and you understand Congress--the 
President proposes, Congress disposes. Here is the question 
though, if and when, and I believe it is only a question of 
when, Congress restores a lot of these funds, will you 
administer them as intended by Congress? And will you staff 
adequately to meet those needs? Will you administer and 
implement the budget that Congress passes?
    Secretary Perry. To the best of my ability, I'm going to 
follow the rule of law, sir.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    We will have an opportunity for another round of questions. 
I know that Senator Hoeven is hoping to make it back.
    I wanted to ask you, Secretary Perry, about the Office of 
Indian Energy. This provides assistance with energy 
development, capacity building, cost reductions for tribes and 
Alaska Natives. This is a tough area to cut in my view. We have 
a situation in Alaska--we have half the tribes in the country 
and a lot of opportunities in the energy space when it comes to 
our native people.
    We have doubled the staffing in the Office of Indian Energy 
in Alaska. We now have two DOE folks, two permanent employees, 
in the state. We had been working with Secretary Moniz because 
we had one fellow, one person, who had basically been running 
things for a period of years. He promised that we might be able 
to see as many as three--we are up to two.
    But the reality is that we have had lack of adequate and 
consistent DOE staffing within our state. I am not going to 
suggest to you that you need to be on a hiring spree here, but 
I do want to make sure, again, that our needs are met. The 
Office of Indian Energy, in my view, is one of those areas 
where you have high need, an important priority. We need to 
make sure that not only resources are there, but those to help 
effectuate the initiatives are in place.
    So the question to you at this time is whether you think 
that there are some opportunities within the Office of Indian 
Energy to do more with not sharing of the funds but 
distributing these funds through different grant programs. What 
are we going to do to make sure the role of the Office of 
Indian Energy is not diminished? I would ask you to speak to 
the issue of the staffing that we have tried to make a priority 
in the state and where you see that might go. I am actually 
glad Senator Franken has rejoined the Committee now, because 
this is something that he and I have talked about often, that 
within the Office of Indian Energy there is good opportunity 
there. And Senator Hoeven, coming out of North Dakota, I think 
appreciates that well. So you have three of us that are 
interested in this budget category.
    Secretary Perry. Senator, if I might, and I'll try to be as 
brief as I can on this. As a matter of fact, this is just a 
new--it was released today.
    The Chairman. I like that you are using new technology 
instead of paper.
    Secretary Perry. Yes, ma'am. The Office of Indian Energy 
Policy and Programs announced today that it selected 13 tribal 
energy projects to receive funding at $7.8 million. I'm not 
going to delve into it anymore, but we're making some progress 
on that. We will work very closely with you, and Senators 
Hoeven and Franken both, as you all have tribal interests in 
your states and in this program. So----
    The Chairman. Well, I appreciate that and it is always nice 
to hear news of grants, but again, I would like to know that we 
have----
    Secretary Perry. Staffing.
    The Chairman. ----some great sustainability here, and that 
sustainability comes with staffing. As you know, we have a 
really big state.
    Secretary Perry. Yes, ma'am.
    The Chairman. We do not need to go into the Alaska-Texas 
comparison, but I will remind you that we are 2-1/2 times the 
size of Texas, and we have one guy--now we have two guys.
    Secretary Perry. I was given that t-shirt that showed Texas 
inside of Alaska with the adage, ``Size matters.''
    [Laughter.]
    The Chairman. I am glad that we have connected here. So 
this is good, this is good.
    [Laughter.]
    I am going to defer to Senator Franken and then Senator 
Hoeven here so that they have a chance to ask a second round of 
questions.
    Senator Franken. Senator Hoeven is Chairman of Indian 
Affairs, and he has signed on, along with others, on the loan 
guarantee program for Indian Energy. I am glad to hear there is 
$7.8 million and there is more money in the loan guarantee 
program also for Indian projects. I think that is a good thing.
    I want to ask you about climate change. Secretary Perry, at 
your confirmation hearing you acknowledged that the climate is 
changing, but on Monday you were asked on CNBC, ``Do you 
believe CO2 is the primary control knob for the temperature of 
the Earth and for climate?'' and you answered, ``No.'' So if 
the climate is changing and if you disagree that CO2 is the 
primary driver, what do you think is driving the change?
    Secretary Perry. Yes, sir. And I'll finish the rest of that 
interview for the public that may have not gotten as much 
coverage as me saying that I did not think that CO2 was the 
primary knob that changes it. I don't. I think there are some 
other naturally occurring events, the warming and the cooling 
of our ocean waters and some other activities that occur. I 
also said in the next breath that man's impact does in fact 
have an impact on the climate. The question is, what is going 
to be the economic impact for this country?
    I referenced yesterday--in a hearing in front of the Senate 
Appropriations--that even an individual as celebrated from the 
standpoint of his capability as the Under Secretary of Energy 
under the previous Administration, Stephen Kunz, he said that 
the science isn't settled yet.
    I'll ask the Committee and I'll ask you, don't you think 
it's okay to have this conversation about the science of 
climate change? And why don't we have a red team approach and 
sit down--you know, get the politicians out of the room and let 
the scientists--and listen to what they have to say about it? 
I'm pretty comfortable that, what's wrong with being a skeptic 
about something that we're talking about that's going to have a 
massive impact on the American economy?
    Senator Franken. Well, you said this thing about--you told 
Senator Kunz that we need a red team-blue team exercise to 
establish climate change. It is my understanding that in a red 
team-blue team exercise, the blue team makes an argument, then 
the red team tries to knock it down, and the blue team then 
refines their argument, and they go back and forth until 
consensus is reached.
    But that is exactly how science works, and including 
climate science. Researchers collect data and make arguments, 
peer reviewers poke holes in the argument, the researchers 
respond, and it goes back and forth until consensus is reached. 
Every peer-
reviewed climate study goes through that red team-blue team 
treatment, and then thousands of studies are gathered into 
reports, and those reports themselves go through rigorous red 
team-blue team, and that is the scientific process.
    You are not the first to do red team-blue team. The Koch 
brothers hired a red team of skeptics in 2012 in an effort to 
cast out on main stream science. It was called the BEST 
Project, and much to the chagrin of their funders, the 
skeptical scientists found that mainstream climate science is 
correct. To quote the scientific director of BEST, Dr. Richard 
Muller, ``Call me a converted skeptic.'' This was in 2013 or 
'14. ``Last year, following an intensive research effort 
involving a dozen scientists, I concluded that global warming 
was real and that the prior estimates of the rate of warming 
were correct. I am now going a step further, humans are 
entirely the cause.''
    Now, if you say that this is caused by the warming of the 
oceans, the reason the oceans are warming is because they 
absorb, water absorbs, the heat. That is why the sea level is 
rising, because when the water heats, it expands and also 
because of the melting of the ice caps. There is no peer-
reviewed study that does not say this is happening.
    The biggest proponent of this is our military and they, in 
their quadrennial review, say this is the biggest threat to our 
world. The time for red team--I'm sorry--that is what we do 
every day, that is what scientists do every day and 100 percent 
of peer-reviewed scientists have a consensus, and that is that 
this is happening.
    Secretary Perry. Senator, you said something that caught my 
attention in your remarks, that the person who had become a 
skeptic, converted skeptic?
    Senator Franken. Mm-hmm.
    Secretary Perry. And you said that he made the statement 
that global warming was 100 percent due to human activity.
    Senator Franken. Mm-hmm.
    Secretary Perry. I don't believe that--100 percent? Every 
bit of that is global warming? I don't buy it.
    Senator Franken. Well----
    The Chairman. Thank you, Senator Franken.
    Senator Franken. I would just like to respond to that.
    The Chairman. Well----
    Senator Franken. That was someone hired by the Koch 
brothers.
    [Laughter.]
    Secretary Perry. Listen, everybody has hired somebody 
that's got something wrong from time to time, but to stand up 
and say that 100 percent of global warming is because of human 
activity I think on its face is just indefensible.
    The Chairman. We are probably not going to resolve that 
here today, so let's go to Senator Hoeven.
    Secretary Perry. Hence, we should have a red-blue team 
approach to this again.
    The Chairman. Thank you.
    Senator Franken. Okay. Never mind.
    [Laughter.]
    Senator Hoeven. Mr. Secretary, it is good to see you again.
    Secretary Perry. Yes, sir.
    Senator Hoeven. One of the things that we talked about at 
our Energy and Water Appropriations hearing was how we could do 
carbon capture and sequestration. Actually Senator Franken, 
what we did talk about, and you were on board with, were the 
carbon capture and sequestration projects that we have underway 
and helping do them.
    Secretary Perry. Yes, sir.
    Senator Hoeven. So, I mean, that is using new technology to 
produce more energy----
    Secretary Perry. Improve it.
    Senator Hoeven. ----and improve environmental stewardship. 
But there was one question that I did want to follow up with 
you on that I did not get to ask yesterday, and that is our 
Energy and Environmental Research Center at the University of 
North Dakota, which I referred to yesterday and which we are 
going to get you out to visit and look forward to doing that 
and seeing what they are doing. They have contracts and 
cooperative agreements with the Department of Energy, with your 
Office of Fossil Energy. The Energy and Environmental Research 
Center at the University of North Dakota has cooperative 
agreements with your Office of Fossil Energy at DOE. Under 
those cooperative agreements, they are actually doing this 
development of carbon--both the capture and the storage--and it 
is a big regional project, it covers a huge area out there 
where they are actually putting CO2 downhole. In some cases, it 
is tertiary recovery, in other cases it is just storage.
    Secretary Perry. Yes, sir.
    Senator Hoeven. Interestingly enough, we are not only doing 
that for the fossil industry, we actually have ethanol plants 
out there. One of our ethanol plants now, because we put the 
legal and regulatory structure in place to actually store CO2 
from Class VI wells, so just store it, not for secondary 
recovery, but we have that legal and regulatory framework which 
we basically developed from the Interstate Oil and Gas Compact 
Commission (IOGCC). I think you were Chairman of the IOGCC, and 
I was Chairman several times. We developed that model 
legislation which we actually passed in North Dakota, so that 
legal regulatory framework is in place, and EPA just gave us 
primacy on the ability to regulate it.
    So now not only are we working with the fossil industry to 
store CO2 and get secondary recovery, we actually have an 
ethanol plant now that is capturing the CO2 out of their 
process and then they are going to actually store it too. That 
will not be for tertiary recovery, that will be just 
sequestration. Okay? So we are doing it on the renewable side 
too.
    These are the kind of cooperative agreements we have with 
DOE. My request to you is, would you ask your Office of Fossil 
Energy to expedite the grant funding? Because our guys have 
grant funding under those cooperative agreements and they are 
being held up on their projects right now because that grant 
funding is shared between the State of North Dakota, private 
enterprise, and your office but we are waiting on your piece of 
it.
    Secretary Perry. Yes, sir. And, Senator, is it your 
understanding of this that the delay has been because of a 
review process that was going on at DOE?
    Senator Hoeven. I do not know the answer to that.
    Secretary Perry. I'll find out.
    Senator Hoeven. But these are agreements that are in place. 
The agreement is there, it is just that they are waiting on 
that funding for these ongoing projects. I am not sure why it 
is----
    Secretary Perry. I'll find out.
    Senator Hoeven. Thank you, sir.
    Secretary Perry. We'll be back in contact.
    Senator Hoeven. I appreciate it. And when I see Senator 
Franken, I will tell him we are working hard on these carbon 
capture projects.
    Secretary Perry. Yes, sir.
    Senator Hoeven. Thanks again.
    The Chairman. Thank you, Senator Hoeven.
    Secretary Perry, you have been very good. I had not thought 
we would keep you until a quarter of one o'clock, but again, I 
apologize for the late start and appreciate your indulgence 
going over here and your responses to many. As it gets warmer 
here in Washington, DC, though, you need to know that this 
Alaska girl longs for the Arctic, and I start thinking about 
Arctic all the time. What are we doing here in the Congress, 
what are we doing in the Administration to really take that 
leadership role that I think the United States should as an 
Arctic nation? We discussed at the confirmation hearing and 
prior to that, that this is a focus of mine, and I do not 
really see much in the budget here that will help us build out 
that Arctic energy vision.
    So I would like to know if there is something special in 
here that you want to point my attention to. I am happy to look 
at it but know that it is something that I would like to sit 
down with you and your team. I know that your team is a little 
bit skinny right now and we are going to help you with that, 
but we really want to try to make sure there is an 
understanding that within the Department of Energy we think 
that you can play a very, very key role in so many of these 
initiatives as we work on our Arctic global leadership. So I 
look forward to working on that with you.
    Secretary Perry. Senator, the one thing that I would just 
reiterate with you, I think we've mentioned it here, I spoke to 
you and the Committee, in the room behind the Committee, prior 
to coming in, is my great belief and faith and hope that small 
modular reactors, the work that is being done in the private 
sector, the work that we will be doing to advance that, the 
next generation, if you will, is I think one of the ways that 
we can address the Arctic.
    The real challenges that you have of not having a 
widespread grid, this vast area of land where the population is 
thin in places and being able to deliver a source of energy to 
them that is practical, that is economical and that is stable 
would be a goal that I look forward to working with you.
    The Chairman. Well, I so agree. I think there are multiple 
applications where you might not think nuclear would be a fit 
for Alaska. Everybody thinks of us as this great fossil-
producing state, and we certainly have that in abundance, as we 
do our renewables, whether it is wind, solar, geothermal, and 
hydro, clearly. Senator Cantwell noted in her opening statement 
that we had an opportunity to go to Cordova to conduct a field 
hearing of the Energy Committee focused on microgrids. We are 
pioneering microgrids in Alaska that the rest of the world is 
paying attention to.
    So we have a lot to offer. Again, these are areas where you 
might not think about in the context of the Arctic discussion, 
but there is clearly a role. If you are looking for incubators 
of innovation, we can absolutely provide that to you. In fact, 
I have a renewable energy fair that I would like to invite you 
to in mid-August in the interior of Alaska. It does not get any 
more beautiful than that.
    If you want to just get a slight preview of some of the 
innovation that goes on, I have a grow tower in my front 
reception room in my office here in the Hart Building where we 
are growing lettuce. I am just here to tell you that people do 
not think we can grow anything in the cold, in the dark, and we 
are proving that with a little bit of ingenuity, you can grow 
it in your reception room. So I am looking forward to working 
with you on those issues.
    Secretary Perry. I look forward to coming up and spending 
some time in the great State of Alaska.
    The Chairman. We look forward to welcoming you.
    Thank you for being here and thank you for your time.
    Secretary Perry. Thank you, Senator.
    The Chairman. We stand adjourned.
    [Whereupon, at 12:48 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
